                            CLOSEOUT FOR M94010001
                                                   Program Director for                 in the
                                                  the Directorate for Social, Behavioral and
                                                   had received from Mr.                  (aka
                                                     ant described problems a consultant had
                                                   , an Assistant Professor in the Department
                                                             University. The consultant had
worked with the subject on her research uroiect and. u a d v as a result of her work with him.


subject's NSF research project and was angry that she was using consultants other than him
and that she had reduced the contractual amount she was willing to pay him for his services.
Allegedly the subject had offered the consultant co-authorship on a book that was to be written
but the consultant was concerned that he might not now be named as a co-author. The
consultant alleged that the subject was mishandling her grant funds and reneging on her
contractual agreements with him.

        OIG reviewed the subject's award jacket, correspondence she had with the program
officer, the financial records for the award, and the complainant's letter and its supporting
documentation. OIG learned that the subject and consultant had worked together for about 14
months before the proposal was submitted and for 23 months before it was awarded. This
relationship began to deteriorate and finally broke apart at the time the NSF award was made.
The subject's proposal specifically described her work with the consultant and his anticipated
contribution to her research project. However, when the subject asked the NSF program
officer, he told her the proposal did not commit her to work with the consultant. The program
officer told the subject that her use of other consultants was "encouraged" because it would
"enhance the project." The proposal also identified four other individuals as potential
consultants. Unlike the consultant some of these individuals received payments under the
award, indicating that the consultant's and subject's relationship had terminated before work
on the NSF award began.

        OIG concluded that the issues raised by the complainant had arisen before the NSF
proposal was submitted. The relationship between the subject and consultant had severed at
about the same time the NSF award was made and no NSF funds were provided to the
consultant. The subject's proposal did not contain any explicit commitment for working solely
with the consultant, and the NSF program officer had encouraged the subject to work with
other individuals who would advance her research. The NSF program officer's actions were
appropriate. The proposal stated that one of the goals of the project was to publish papers in
                                     Page 1 of 2                             M94-01
                             CLOSEOUT FOR M94010001
scholarly journals and a dictionary; however, the proposal did not contain a list of co-authors
or specify that the consultant would be a co-author, and the book has not been published. The
consultant's concerns about alleged agreements made many months before the NSF proposal
was submitted were not within NSF's jurisdiction. In addition, OIG could not find evidence to
support the consultant's concerns and also concluded the subject's actions would not be
considered misconduct in science even if they were within OIG's jurisdiction.

       This inquiry is closed and no further action will be taken.


cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                      Page 2 of 2                              M94-01
